CERTIFICATE OF SERVICE
NO. TBD
Sangeeta Bhargava
Petitioner(s)
v.
Mortgage Electronic Registration Systems, Inc. (MERS)
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
SANGEETA BHARGAVA PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies
of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Glen Moss, Esq.
Moss and Murphy
1297B Street
Hayward, CA 94541
m-m@pacbell.net
Counsel for Raghav Bhargava

Leslie M. Werlin, Esq.
McGuireWoods LLP
1800 Century Park East, 18th Floor
Los Angeles, CA 90067-1501
lwerlin@mcguirewoods.com
Counsel for Bank of America, N.A. & Mortgage
Electronic Registration Systems, Inc.

Lucas DeDeus

October 9, 2020
SCP Tracking: Spielbauer, Esq.-200 South Market Street-Cover White

